     Department of Homeland Security





        FEMA Should Recover $2.2 Million of Public 

    Assistance Grant Funds Awarded to Memphis Light, 

    Gas and Water Division - Severe Weather, June 2009 





DA-13-05                                    November 2012

                                     OFFICE OF INSPEcrOR GENERAL
                                         Department of Homeland Security
                                          Washington, DC   20~ 2 8 1   www.oi g.dhs.goY

                                                NOV 2 0 1012
MEMORANDUM FOR:                      Major P. (Phil) May
                                     Regional Administrator, Region IV
                                     Federal Emer     cy anagement Agency
                                                                  /,         1//._______ --
FROM:                                D. Michael Bear               'tf/.~~-­
                                     Assistant Inspe or General
                                     Office of Em e gency Management Oversight

SUBJECT:                             FEMA Should Recover $2.2 Million of Public Assistance
                                     Grant Funds Awarded to Memphis Light, Gas and
                                     Water Division - Severe Weather, June 2009
                                     FEMA Disaster Number 1851-DR-TN
                                     Audit Report Number DA-13-05

We audited Public Assistance {PAl funds awarded to Memphis Light, Gas and Water Division
(Utility) in Memphis, Tennessee (FIPS Code 157-0464A-OO). Our audit objective was to
determine whether the Utility accounted for and expended Federal Emergency Management
Agency (FEMA) grant funds according to Federal regulations and FEMA guidelines.

AS of January 4, 2012, the Utility received a PA award of $7.9 million from Tennessee
Emergency Management Agency (State), a FEMA grantee, for damages resulting from
severe storms, tornadoes, straight-line winds, and flooding that occurred in June 2009. The
award provided 75 percent FEMA funding for debris removal, emergency protective
                                                                                          1
measures, and permanent electrical repair work. The award included three large projects.

We audited the $7.9 million awarded under the three large projects. The audit covered the
period June 12, 2009, to March 12, 2012, during which the Utility claimed $7.9 million (see
Exhibit A, Schedule of Projects Audited) and received $5.9 million of FEMA funds. At the
time of the audit, the Utility had completed work on all projects and had submitted a final
claim to the State for project expenditures.

We conducted this performance audit between January and July 2012 pursuant to the Inspector
General Act of 1978, as amended, and according to generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence t9 provide a reasonable basis for our findings and conclusions based upon
our audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based upon our audit objective. We conducted this audit by applying
the statutes, regulations, and FEMA policies and guidelines in effect at the time of the disaster.


1 Federal regulation s in eff ect at the time of the disaster set the large project threshold at $64,200.
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



We judgmentally selected project costs (generally based on dollar value); interviewed Utility,
State, and FEMA personnel; reviewed the Utility’s procurement policies and procedures;
reviewed applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary under the circumstances to accomplish our audit objective. We did not
assess the adequacy of the Utility’s internal controls applicable to its grant activities because it
was not necessary to accomplish our audit objective. However, we gained an understanding of
the Utility’s method of accounting for disaster-related costs and its policies and procedures for
administering activities provided for under the FEMA award.


                                                RESULTS OF AUDIT

FEMA should recover $2,218,464 of PA funds awarded to the Utility. Although the Utility
accounted for expenditures on a project-by-project basis, its claim included $2,192,069 for
contracts that were not procured according to Federal procurement requirements and $26,395
of ineligible contract and force account charges.2

Finding A: Improper Procurement Procedures

The Utility did not comply with Federal procurement requirements and FEMA guidelines when
awarding contracts valued at $2,192,069 for electrical restoration work. Federal procurement
regulations at 44 CFR 13.36 required the Utility, among other things, to—

•	 Conduct all procurement transactions in a manner providing full and open competition
   except under certain circumstances. One allowable circumstance is when the award of a
   contract is infeasible under small purchase procedures, sealed bids or competitive
   proposals, and there is a public exigency or emergency for the requirement that will not
   permit a delay resulting from competitive solicitation (44 CFR 13.36(c)(1) and (d)(4)(i)).

•	 Perform a cost or price analysis in connection with every procurement action, including
   contract modifications, to determine the reasonableness of the contractor’s proposed price
   (44 CFR 13.36(f)(1)).

•	 Use time-and-material type contracts only after a determination that no other contract is
   suitable; and if the contract includes a ceiling price the contractor exceeds at its own risk
   (44 CFR 13.36(b)(10)).

In addition, FEMA’s Public Assistance Guide (FEMA 322, June 2007, pp. 51–52) specifies that—


2
    Force account refers to the Utility’s personnel and equipment.

www.oig.dhs.gov                                        2	                         DA-13-05
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


•	 Contracts must be of reasonable cost, generally must be competed, and must comply with
   Federal, State, and local procurement standards.

•	 Noncompetitive proposals should be used only when the award of a contract is not feasible
   under small purchase procedures, sealed bids, or competitive proposals, and one of the
   following circumstances applies: (1) the item is available only from a single source, (2) there
   is an emergency requirement that will not permit a delay for competition, (3) FEMA
   authorizes noncompetitive proposals, or (4) solicitation from a number of sources has been
   attempted and competition is determined to be inadequate.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
case basis (44 CFR 13.6(c)).

Under Project 38, the Utility awarded three noncompetitive time-and-material contracts for the
restoration of electrical power lost during the disaster. The Utility selected the contractors
from a list of potential sources it had compiled prior to the disaster. The contract work began
on June 13, 2009, and continued until June 19, 2009, when all power was restored. The Utility
claimed $2,192,069 of contract costs for the work during this emergency period. We concluded
that the lack of power constituted exigent circumstances that warranted the use of
noncompetitive contracts during this period. However, the Utility (1) did not perform a cost or
price analysis to determine the reasonableness of the contractors’ proposed prices, and (2) did
not establish ceiling prices that the contractors exceeded at their own risk. As a result, FEMA
has no assurance that the $2,192,069 of contract work was obtained at a fair and reasonable
price. Therefore, we question the $2,192,069.

Utility officials said that they receive rates from contractors annually and compile a list of
potential sources (by location, availability, and expertise) in the event of an emergency.
However, there was no evidence in the Utility’s files that the prices were negotiated or
reviewed for reasonableness. We noted that the overtime rates for similar positions varied
considerably between the contractors. For example, one contractor’s overtime rate for a
general foreman was $98 per hour, while the other contractor’s overtime rate for a general
foreman was $133 per hour, or 35.7 percent higher.

Federal regulation 44 CFR 13.40(a) requires the State, as grantee, to manage the day-to-day
operations of subgrantee activity and monitor subgrantee activity to ensure compliance with
applicable Federal requirements. The costs in question were accepted by the State during
closeout of the project in March 2012. However, the State’s closeout documentation did not
indicate that the costs were reviewed to ensure compliance with Federal procurement
requirements and FEMA guidelines. In our view, the State should have done a better job of
reviewing the eligibility of the costs claimed by the Utility.



www.oig.dhs.gov                              3	                                 DA-13-05
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Utility Response: Utility officials disagreed with our finding and recommendation that the
contract costs be disallowed. They contend, based on the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, that the Utility is not liable for reimbursement or any other penalty
as long as the costs incurred were reasonable and the FEMA funds were used to mitigate losses
from the disaster. Further, they said that our audit focused solely on the Utility’s “perceived”
failure to comply with 44 CFR 13.36 and never dealt with the issue of whether the costs were
reasonable.

Office of Inspector General Response: On several occasions we requested evidence from the
Utility that it performed a cost analysis to determine reasonableness of the contractor rates.
However, such pertinent documentation was never provided to us during the audit. Therefore,
our position remains unchanged.

Finding B: Ineligible Charges

The Utility’s claim included $26,395 of ineligible contract and force account charges. We
question the $26,395 as follows:

•	 Contract Equipment. Under Project 36, the Utility claimed $17,312 of contract equipment
   charges for three generators that were rented to be used at water pump stations in the
   event of extended power outages. However, power was restored sooner than anticipated
   and the generators were never used. A FEMA project officer disallowed the costs during
   final inspection of the project because they were for standby equipment time, which is
   ineligible under FEMA’s Public Assistance Guide (FEMA 322, June 2007, p. 48). The project
   officer noted such disallowance on the inspection report, but did not prepare a deobligation
   document to remove the costs from the project worksheet. As a result, the Utility was
   reimbursed for the $17,312 of ineligible costs.

•	 Force Account Equipment. Under Project 38, the Utility included $8,141 of ineligible force
   account equipment charges as a result of data entry/mathematical errors made by Utility
   personnel. Federal regulation 2 CFR 225 (Cost Principles for State, Local, and Indian Tribal
   Governments, Appendix A, (C)(1)(j)), states that a cost must be adequately documented to
   be allowable under a Federal award.

•	 Force Account Labor. Under Project 38, the Utility inadvertently claimed $942 of the same
   force account labor charges, resulting in duplicate charges under the project.




www.oig.dhs.gov                             4	                                 DA-13-05
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                     RECOMMENDATIONS


We recommend that the Regional Administrator, FEMA Region IV: 


       Recommendation #1: Disallow $2,192,069 (FEMA share $1,644,052) of ineligible costs
       claimed for contracts that were not procured in accordance with Federal requirements,
       unless FEMA decides to grant an exception for all or part of costs as provided for in
       44 CFR 13.36(c) (finding A).

       Recommendation #2: Instruct the State to reemphasize to the Utility its requirement to
       comply with Federal procurement regulations and FEMA guidelines when acquiring
       goods and services under the FEMA award (finding A).

       Recommendation #3: Reemphasize to the State its requirement, as grantee, to
       adequately review costs claimed by subgrantees for compliance with applicable Federal
       procurement requirements and FEMA guidelines (finding A).

       Recommendation #4: Disallow $26,395 (FEMA share $19,796) of ineligible contract
       equipment and force account equipment and labor charges (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Utility and State officials during our audit. We also
provided a draft report in advance to FEMA, State, and Utility officials and discussed the results
of our findings and recommendations at the exit conference held on July 9, 2012. Utility
officials disagreed with finding A. Their comments, where appropriate, are included in the body
of this report. FEMA and State officials withheld comments pending receipt of report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.



www.oig.dhs.gov                             5                                   DA-13-05
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Major contributors to this report were David Kimble, Eastern Region Audit Director;
William H. Johnson, Audit Manager; Nadine F. Ramjohn, Senior Auditor; and Jerry Aubin,
Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                            6                                  DA-13-05
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                                  EXHIBIT A

                               Schedule of Projects Audited 

                             June 12, 2009, to March 12, 2012 

                           Memphis Light, Gas and Water Division 

                            FEMA Disaster Number 1851-DR-TN 


Project                                                 Amount       Amount       Amount
Number                        Scope                     Awarded      Claimed     Questioned
          Force account labor, contracts to man
  36                                                    $268,550     $268,550       $17,312
          phone banks and rented generators
          Replace power poles, distribution lines,
  38                                                    6,527,094    6,527,094   $2,201,152
          substation damage
  55      Clear debris from electrical power lines      1,113,077 1,113,077               0
 Total                                                 $7,908,721 $7,908,721     $2,218,464




www.oig.dhs.gov                             7                             DA-13-05
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                                                          EXHIBIT B 

                                 Report Distribution List 

                           Memphis Light, Gas and Water Division 

                            FEMA Disaster Number 1851-DR-TN 



Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code DA-12-012)

Grantee

Director, Tennessee Emergency Management Agency

State

State Auditor, Tennessee

Subgrantee

Chief Financial Officer, Memphis Light, Gas and Water Division




www.oig.dhs.gov                            8                         DA-13-05
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
